MASTERCARD
F1
CREDIT CARD ACCOUNT OPENING DISCLOSURE
®

This Disclosure is incorporated into and becomes part of your LOANLINER Consumer Credit Card Agreement.
Please keep this attached to your LOANLINER Consumer Credit Card Agreement.
Interest Rates and Interest Charges
Annual Percentage Rate (APR) for
Purchases

APR for Balance Transfers

APR for Cash Advances
Paying Interest

For Credit Card Tips from the Consumer
Financial Protection Bureau
Fees
Transaction Fees
- Foreign Transaction Fee
Penalty Fees
- Late Payment Fee
- Returned Payment Fee

F4.90%2Introductory APR for a period of six months.
After that your APR will be 8.25%
F3
. This APR will vary with the
market based on the Prime Rate.
F4.90% Introductory APR for a period of six months.
After that your APR will be 8.25%
F5
. This APR will vary with the market
based on the Prime Rate.
F6
This APR will vary with the market based on the Prime Rate.
Your due date is at least 25 days after the close of each billing cycle.
We will not charge you any interest on purchases and balance transfers
if you pay your entire balance by the due date each month. We will
begin charging interest on cash advances on the transaction date.
To learn more about factors to consider when applying for or
using a credit card, visit the website of the Consumer Financial
Protection Bureau at http://www.consumerfinance.gov/learnmore.

1.00%

of each transaction in U.S. dollars

Up to $30.00F8
Up to $30.00F9

How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See
your account Agreement for more details.
Promotional Period for Introductory APR: The Introductory APR for purchases and balance transfers will apply to
transactions posted to your account during the first six months following the opening of your account.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is provided in your
account Agreement.
OTHER DISCLOSURES
Late Payment Fee
Returned Payment Fee
Rush Fee
Card Replacement Fee

$30.000 or the amount of the required minimum payment, whichever is
less, if you are ten or more days late in making a payment.
$30.001 or the amount of the required minimum payment, whichever is
less.
$30.00
$5.00

Collection Costs: You agree to pay all costs of collecting the amount you owe under this Agreement, including court
costs and reasonable attorney's fees.

©CUNA Mutual Group 2009, 10, 12 All Rights Reserved

DTXWP5 (MXC453 CCM003)-e

SEE NEXT PAGE for more important information about your account.

Periodic Rates:
4.90% which is a daily periodic rate of F15
The Introductory Purchase APR is F14
0.0134% .
F17
.
The Purchase APR is F16
8.25% which is a daily periodic rate of 0.0134%
The Introductory Balance Transfer APR is F18
0.0134% .
4.90% which is a daily periodic rate of F19
The Balance Transfer APR is 8.25%
F20
which is a daily periodic rate of 0.0134%
F21
.
The Cash Advance APR is 8.25%
F22
which is a daily periodic rate of 0.0134%
F23
.
Variable Rate:
The ANNUAL PERCENTAGE RATE is subject to change semi-annually on the first day of the billing cycle to reflect any
change in the Index and will be determined by the Prime Rate as listed in the “Money Rates” section of The Wall Street
Journal on the first day of January and July, to which we add a margin. Any increase in the ANNUAL PERCENTAGE
RATE will take the form of additional payments shown as Total Minimum Payments on the statement. If the Index is no
longer available, the Credit Union will choose a new index which is based upon comparable information.
Margin:
Purchases will be charged at 4.75%
F24
above the Index.
Balance Transfers will be charged at 4.75%
F25
above the Index.
Cash Advances will be charged at 4.75%
F26
above the Index.

DTXWP5 (MXC453 CCM003)-e

